             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


             SAFE HARBOR,
A FEE-FOR-SERVICE REPRESENTATIVE PAYEE
FOR THE SOCIAL SECURITY ADMINISTRATION

        July 2011   A-07-11-11141




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 5, 2011                                                               Refer To:

To:        Carolyn L. Simmons
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Safe Harbor, A Fee-for-Service Representative Payee for the Social Security
           Administration (A-07-11-11141)


           OBJECTIVE
           Our objectives were to determine whether Safe Harbor (1) used and accounted for
           Social Security benefits in accordance with Social Security Administration (SSA)
           policies and procedures, (2) had effective safeguards over the receipt and disbursement
           of Social Security benefits, and (3) adequately protected the beneficiaries’ personally
           identifiable information (PII).

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and manage these beneficiaries’ payments
           from the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
           Security Income (SSI) programs.1 A representative payee may be an individual or an
           organization. SSA’s regulations indicate the Agency will select representative payees
           for beneficiaries when representative payments would serve the individuals’ interests.2
           Representative payees are responsible for managing benefits in the best interest of the
           beneficiary. 3 See Appendix B for additional representative payee responsibilities. Safe
           Harbor is a fee-for-service nonprofit organization with two employees, located in
           Scottsbluff, Nebraska. Safe Harbor, as a representative payee, received payments
           under SSA’s OASDI and SSI programs on behalf of 154 beneficiaries.

           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               20 C.F.R. §§ 404.2001 and 416.601.
           3
             Id. Also, we use the term “benefits” to refer to OASDI benefits and SSI payments. Likewise, we use the
           term “beneficiaries” to refer to OASDI beneficiaries and SSI recipients.
Page 2 – Carolyn L. Simmons

SSA’s Kansas City Regional Office requested this audit, in part, because of an
allegation that a former Safe Harbor employee had stolen funds from Safe Harbor
clients, including five SSA beneficiaries. Safe Harbor dismissed the employee in
September 2009. The case is currently with the United States District Attorney’s Office.
Safe Harbor returned all funds allegedly stolen from the SSA beneficiaries. See
Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
Our audit period was from October 1, 2009 to June 30, 2010. We found that Safe
Harbor had effective safeguards over the receipt of Social Security benefits. However,
Safe Harbor did not:

•   Use and account for Social Security benefits in accordance with SSA’s policies and
    procedures. Specifically, Safe Harbor had inadequate internal controls related to
    conserved funds and interest-bearing checking accounts. Further, Safe Harbor
    operated as a conduit payee for 12 of the 50 SSA beneficiaries we reviewed. 4

•   Have effective safeguards over the disbursement of Social Security benefits.
    Specifically, Safe Harbor did not have an adequate segregation of duties in its
    accounting process or perform monthly bank reconciliations. In addition, Safe
    Harbor did not maintain receipts supporting all expenditures.

•   Have adequate safeguards to secure beneficiaries’ personal and financial
    information.

•   Periodically meet with beneficiaries to determine their current and foreseeable
    needs.

USE AND ACCOUNTING FOR BENEFITS

Safe Harbor did not use and account for Social Security benefits in accordance with
SSA’s policies and procedures. Specifically, Safe Harbor

    •   failed to return conserved funds timely for 82 beneficiaries who were no longer
        under its care,
    •   failed to place the conserved funds for 12 beneficiaries in interest-bearing
        accounts, and
    •   operated as a conduit payee for 12 SSA beneficiaries.




4
 A conduit payee turns over all or most of the SSA funds to the beneficiary or other third party who
decides how the funds are used.
Page 3 – Carolyn L. Simmons

Conserved Funds

Safe Harbor had retained $42,830 in conserved funds5 for 82 SSA beneficiaries who
had left its care or died. Safe Harbor had retained the funds an average of 7 years. 6
This occurred because Safe Harbor did not have procedures in place to return
conserved funds to SSA timely when its payee services ended. During our audit, Safe
Harbor returned the $42,830 to SSA. 7

SSA requires the representative payee to return conserved funds to SSA after the
beneficiary leaves the payee’s care. SSA then reissues the conserved funds to the
successor payee, or to the beneficiary in direct payment, to meet the beneficiary’s
needs. 8 Although SSA does not specify a time in which to return conserved funds, Safe
Harbor’s practice of retaining funds belonging to SSA beneficiaries prevented Agency
staff from timely reissuing the funds to the new representative payees or to the
beneficiaries directly, as appropriate.

Non-Interest Bearing Collective Checking Account

Safe Harbor’s collective account is a non-interest-bearing account. 9 According to SSA,
the representative payee with a collective account should place a beneficiary’s
conserved funds in excess of $500 in an interest-bearing account or other investment
that is relatively free of risk. 10 Twelve of the 50 beneficiaries in our sample had
conserved funds that exceeded $500. However, Safe Harbor had not placed their
conserved funds in an interest-bearing account.




5
 Conserved funds are the benefits remaining (or saved) after the immediate or reasonably foreseeable
needs of the beneficiary are met. See SSA, POMS, GN 00603.001.A (November 15, 2004).
6
    Safe Harbor had held conserved funds for one account since May 1997.
7
 Safe Harbor returned the conserved funds of five deceased beneficiaries to SSA. However, Safe
Harbor should have returned the conserved funds to the legal representative of the beneficiary’s estate
(SSA, POMS, GN 00603.100.B.2 (September 4, 2002)). Safe Harbor sent the conserved funds for one
deceased beneficiary to the Nebraska Medicaid Recovery Agency.
8
 SSA, POMS, GN 00502.113.C.1 (January 30, 2009); GN 00603.055.A (December 6, 2010);
GN 00605.370.A (August 20, 2010); SSA, Guide for Organizational Representative Payees 2008
(No. 17-013), p. 25.
9
  A collective bank account contains the funds of two or more individuals. Upon its approval, SSA allows
a representative payee to open this type of account because it can reduce the administrative burden of
maintaining individual accounts for each beneficiary and it can eliminate or reduce service charges and
other fees charged to beneficiaries by the financial institution (See SSA, POMS, GN 00603.020.A
(June 5, 2008)).
10
     SSA, POMS, GN 00603.020.B.1.c (June 5, 2008).
Page 4 – Carolyn L. Simmons

Conduit Payee

From our sample of 50 beneficiaries, we found that Safe Harbor operated as a conduit
payee for 12 beneficiaries. Seven of the 12 beneficiaries lived in care facilities, which
included nursing homes, assisted-living facilities, and room-and-board facilities; and
5 beneficiaries lived independently. A conduit payee gives all or most of the SSA
benefits to a third party or to the beneficiary. Further, a conduit payee does not
exercise control over the benefits, and cannot accurately account for the use of the
benefits. 11 SSA requires the representative payee to document expenditures to show
that the needs of the beneficiaries are met and to provide accurate benefit accountings
to SSA. 12

For the seven beneficiaries in care facilities, Safe Harbor turned over all or most of their
SSA benefits—less its payee fees—to the care facilities. As a conduit payee, Safe
Harbor did not control or account for how the beneficiary’s personal allowance was
spent by the care facility or by the beneficiary at the care facility. Specifically, Safe
Harbor did not collect cash ledgers and receipts from the care facilities to account for
the $4,140 in personal allowances.

For the five beneficiaries living independently, Safe Harbor turned over all or most of the
SSA benefits to the five individuals—less the beneficiaries’ rent and its payee fees. In
total, Safe Harbor provided $17,194 to the beneficiaries. Safe Harbor did not require
the beneficiaries to keep receipts and other documentation to show how they spent
these benefits.

SAFEGUARDS FOR THE DISBURSEMENT OF BENEFITS

Our review determined that Safe Harbor did not have effective safeguards over the
disbursement of Social Security benefits. Specifically, Safe Harbor did not:

      •   have an adequate segregation of duties in its accounting process,
      •   perform monthly bank reconciliations, or
      •   maintain receipts supporting all expenditures.

Segregation of Duties

Safe Harbor did not have adequate segregation of employee duties in its accounting
process. Specifically, one employee had sole access to the accounting records. This
employee recorded the deposits of SSA funds in the ledgers, authorized expenditures,
recorded the expenditures in the ledgers, printed the checks, and controlled the check
stock. A second employee matched the printed checks to available supporting


11
     SSA, POMS, GN 00605.066.B.2 (November 9, 2001); GN 00605.067.D.1 (September 18, 2007).
12
     SSA, POMS, GN 00502.113.C.1 and D.3 (January 30, 2009); GN 00602.001 (March 5, 2002).
Page 5 – Carolyn L. Simmons

documentation verifying the payment amount and vendor. However, the second
employee did not sign or authorize the checks for payment.

No one person should control all aspects of financial transactions.13 Adequate
segregation of duties and oversight of the accounting functions ensure division of key
duties and responsibilities among different people to reduce the risk of error, misuse,
and/or fraud. The limited number of staff at Safe Harbor makes total segregation of
duties difficult to achieve, but the payee could institute compensating controls, such as
requiring both employees to authorize payments by countersigning checks.

Bank Reconciliations

Safe Harbor had not performed bank reconciliations since August 1998. Since Safe
Harbor has a limited segregation of duties in its accounting process, it is important that
Safe Harbor adequately reviews and monitors the accounting process. One significant
review function is monthly bank reconciliations.

Because of concerns SSA expressed about an unexplained balance in Safe Harbor’s
collective account, we completed a reconciliation of the collective bank account as of
October 13, 2009. 14 Our reconciliation identified that the bank account contained
$37,219 more than what was reported in the accounting records as belonging to Safe
Harbor or its clients (See Table 1). We could not identify to whom these funds belonged.

     Table 1: Reconciliation of Safe Harbor's Bank Account as of October 13, 2009
 Safe Harbor's Bank Account Balance                                                          $253,276
   Client Accounts                                               $207,750
   Safe Harbor Insurance Account                                   $2,004
   Safe Harbor Management Fees Account                             $6,303
 Total funds reported as belonging to
 Safe Harbor or its clients                                                                  $216,057
 Additional funds not reported as belonging to
 Safe Harbor or its clients                                                                    $37,219

For effective oversight of the accounting functions, an employee not involved with the
deposit or withdrawal of beneficiary funds should complete monthly bank
reconciliations. In addition, someone independent of performing the bank reconciliation
13
   Government Accountability Office, Standards for Internal Control in the Federal Government
(AIMD-00-21.3.1), November 1999, pp. 12, 14; SSA, Best Practices for Maintaining an Effective
Representative Payee Accounting System, “Separation of Employee Duties,”
http://www.ssa.gov/payee/best.htm; SSA, Guide for Organizational Representative Payees 2008
(No. 17-013), p. 34.
14
  SSA’s inquiries into the alleged theft by a former Safe Harbor employee identified that Safe Harbor’s
bank account contained over $150,000 more than the accounting records indicated belonged to Safe
Harbor or to its clients. SSA was concerned that these funds may belong to SSA beneficiaries.
Page 6 – Carolyn L. Simmons

should certify that the reconciliation was complete and accurate. With Safe Harbor’s
small staff, it would be difficult to have an employee independent of the deposit and
withdrawal of funds perform the bank reconciliation. However, Safe Harbor’s Director
told us that she will begin performing monthly bank reconciliations, and that a member
of Safe Harbor’s Board of Directors will assist in the process.

Receipts and Other Supporting Documentation

For the 50 beneficiaries in our sample, we found Safe Harbor did not maintain receipts
and other documentation to support how it spent 46 percent of the total expenditure of
beneficiaries’ funds. 15 Specifically, of the $395,962 expended during the audit period
for the 50 beneficiaries we reviewed, Safe Harbor did not have receipts or other
supporting documentation for $180,802. For the $180,802 not supported by
documentation, we examined Safe Harbor’s ledgers and canceled checks to identify the
purpose of the expenditures. The ledgers and canceled checks provided expense
information for what appeared to be legitimate purposes, such as rent, food, utilities,
and other items. Although we cannot confirm how the funds were actually expended
without receipts and supporting documentation, nothing came to our attention during our
examination of the ledgers and canceled checks that led us to believe the expenditures
were not for the beneficiaries’ needs.

Inadequate documentation for beneficiaries’ personal allowances and specific needs
was of particular concern. Safe Harbor did not require beneficiaries to provide receipts
or care facilities to provide documentation of beneficiaries’ expenditures to show how
they spent their allowances. Accordingly, we found that only $402 (0.5 percent) of the
$84,198 provided to the beneficiaries and care facilities in personal allowances had
documentation to support the expenditures. According to SSA, the payee is responsible
for keeping accurate and complete records to show how benefits are used. 16 This
includes the beneficiaries’ personal allowances. The representative payee should
control and maintain the appropriate ledger and receipts for these expenses.
Maintenance of this documentation is a safeguard the representative payee must have
in place for all expenditures, regardless of the monetary value, to show that Social
Security benefits were spent for the beneficiaries’ needs.17

The representative payee took steps during the audit to resolve the lack of
documentation for expenditures. The payee is encouraging (1) beneficiaries to mail or
bring in receipts and invoices to Safe Harbor and (2) care facilities to send
documentation of beneficiaries’ expenditures.

15
   Missing documentation included lease agreements, care facility agreements, and receipts for personal
allowances, specific personal needs, and other expenses.
16
     SSA, POMS, GN 00502.113.C.1 and D.3.b (January 30, 2009).
17
  SSA regulations indicate that representative payees must account for the use of benefits, should keep
records of how benefits were used to complete accounting reports, and must make those records
available upon SSA’s request. 20 C.F.R. §§ 404.2065 and 416.665.
Page 7 – Carolyn L. Simmons

PROTECTION OF PII

We found Safe Harbor did not have adequate physical security controls to restrict
unauthorized access to beneficiaries’ sensitive personal and financial information. Safe
Harbor maintained a separate folder for each beneficiary’s PII and financial information.
The folders were stored in several filing cabinets throughout the three rooms of the
payee’s office, including the room with the public entrance. The cabinets had locks but
no keys. Accordingly, the filing cabinets remained unlocked, which allowed access to
the beneficiaries’ files at all times. The check stock and the signature stamp were also
unsecured.

Physical control and access restrictions over beneficiaries’ sensitive financial
information and PII are essential internal controls to reduce the risk of loss and
unauthorized use. 18 By not maintaining adequate safeguards over the beneficiaries’ PII,
Safe Harbor increased the risk of loss and the unauthorized use of the information.
Safe Harbor stated that it has implemented safeguards to resolve the conditions we
found during our review, such as:

      •   acquiring lockable filing cabinets with keys for clients’ financial information and
          PII;
      •   moving all PII from the room with the public entrance to other rooms with
          lockable doors;
      •   securing the check stock in a locked cabinet; and
      •   securing the signature stamp in a locked cabinet.

BENEFICIARY VISITS

None of the 10 beneficiaries we interviewed indicated Safe Harbor had met with them in
person to determine their current and foreseeable needs. SSA requires that a
representative payee regularly meet with the beneficiary to ascertain the beneficiary’s
current and foreseeable needs, although SSA does not specify how often the
representative payee should meet with the beneficiary. 19 Safe Harbor met with some
clients when they visited the office. However, Safe Harbor considered it too intrusive to
call beneficiaries or to visit beneficiaries in their residences to check on the living
conditions and determine how they were doing. During the audit, Safe Harbor’s Director
started visiting beneficiaries in their homes, and found that the visits strengthened the
payee’s relationship with the beneficiaries. Safe Harbor plans to make these visits a
regular practice.



18
 Government Accountability Office, supra, pp. 12, 14 and 15; SSA, Guide for Organizational
Representative Payees 2008 (No. 17-013), pp. 45-47.
19
     SSA, POMS, GN 00502.113.C.1 (January 30, 2009).
Page 8 – Carolyn L. Simmons

CONCLUSION AND RECOMMENDATIONS
Safe Harbor needs to improve its safeguards over the use, accounting, and
disbursement of Social Security benefits. Specifically, Safe Harbor did not use and
account for Social Security benefits in accordance with SSA’s policies and procedures,
effectively safeguard the disbursement of Social Security benefits, and adequately
protect the beneficiaries’ personal and financial information. We also found that Safe
Harbor did not meet with beneficiaries to ascertain their current and foreseeable needs.

To meet the requirements of SSA policies and procedures and to reduce the risk of
error, misuse, and theft of beneficiary funds, Safe Harbor initiated several corrective
actions during the course of our audit. For example, Safe Harbor returned conserved
funds and stated it had improved the security of PII. Furthermore, Safe Harbor is
implementing the collection of receipts and documentation from beneficiaries and care
facilities, plans to involve a Board member in the bank reconciliation process, and plans
to meet with beneficiaries periodically. In addition to the actions taken by Safe Harbor
during our review, we recommend that SSA
1. Remind Safe Harbor to return conserved funds timely in accordance with SSA’s
   instructions.
2. Encourage Safe Harbor to place beneficiaries’ conserved funds of $500 or more in
   an interest-bearing account or a relatively risk-free investment.
3. Determine whether Safe Harbor is the appropriate representative payee for those
   individuals for whom it is a conduit payee.
4. Ensure Safe Harbor establishes effective safeguards over the accounting process
   including a proper segregation of duties and monthly bank reconciliations.
5. Instruct Safe Harbor to maintain sufficient documentation for all the beneficiaries it
   serves to support that Social Security benefits are used in the best interest of the
   beneficiaries.
6. Verify the adequacy of Safe Harbor’s implementation of PII safeguards.
7. Encourage Safe Harbor to meet periodically with all beneficiaries to ascertain their
   current and foreseeable needs.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D). With regard to corrective
actions, SSA stated that in August 2011, its field office staff in Scottsbluff, Nebraska,
would meet with Safe Harbor to ensure full implementation of our recommendations.
Further, SSA stated that Safe Harbor has already implemented most of our
Page 9 – Carolyn L. Simmons

recommendations. Specifically, Safe Harbor established a policy that limits the amount
of time to retain conserved funds; hired an independent accounting agency to reconcile
beneficiary accounts; implemented changes to protect beneficiary PII; and started
visiting beneficiaries.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using Social Security benefits to serve the
beneficiary’s best interests. The responsibilities include the following. 1

     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

     Maintain accounting records of how the benefits are received and used.

     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

     Report any changes in circumstances that would affect their performance as a
      representative payee.

     Provide SSA an annual Representative Payee Report to account for benefits spent
      and invested.

     Return any payments to SSA to which the beneficiary is not entitled.

     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

     Be aware of other income Supplemental Security Income recipients may have, and
      monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035 and 416.635.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period October 1, 2009 to June 30, 2010. To accomplish our
objectives, we:

•   Reviewed applicable Federal laws and regulations as well as Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Communicated with the SSA Kansas City Regional Office and the Scottsbluff,
    Nebraska, Field Office to obtain background information and prior audits regarding
    Safe Harbor.

•   Compared and reconciled the payee’s list of SSA beneficiaries in Safe Harbor’s care
    to a list obtained from SSA’s Representative Payee System.

•   Reviewed Safe Harbor’s internal controls over the receipt and disbursement of
    Social Security benefits.

•   Selected a sample of 50 beneficiaries in the representative payee’s care during the
    audit period and performed the following tests.

    o Compared and reconciled benefit amounts received according to Safe Harbor’s
      records to benefit amounts paid according to SSA’s records.
    o Reviewed Safe Harbor’s accounting records to determine whether benefits were
      properly spent or conserved on the individual’s behalf.
    o Traced all recorded expenses to available source documents and examined the
      documentation for reasonableness and authenticity.

•   Reconciled bank records and Safe Harbor’s records for all individuals in Safe
    Harbor’s collective account.

•   Interviewed a sample of 10 beneficiaries to determine whether their basic needs
    were being met and observed their living conditions.

•   Reviewed the current Representative Payee Accounting Reports for all
    50 beneficiaries to determine whether Safe Harbor properly reported to SSA how
    their benefits were used.

•   Reviewed data extracts from SSA’s systems to determine whether payments were
    sent to Safe Harbor when Safe Harbor was not the beneficiary’s official
    representative payee.


                                           C-1
We performed our fieldwork for this review in Scottsbluff, Nebraska, and Kansas City,
Missouri, between October 2010 and February 2011. We tested the data obtained for
our audit and determined them to be sufficiently reliable to meet our objective. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          C-2
                  Appendix D

Agency Comments
June 15, 2011 4:08

Subject: Audit No. 22010124 Draft Report - Safe Harbor, a Fee-for-Service Representative Payee for the Social
Security Administration- Kansas City Response



To:          Inspector General

From:        Regional Commissioner
             Kansas City Region

Subject:     Safe Harbor, a Fee-for-Service Representative Payee for the Social Security
             Administration–Response

Thank you for the opportunity to review and comment on the Safe Harbor, A Fee-for-Service
Representative Payee for the Social Security Administration (A-07-11-11141) draft report. We
agree and fully support OIG’s recommendations. The responses to the individual audit
recommendations are listed below.

The new Executive Director of the Safe Harbor facility understands her representative payee
responsibilities and will continue working closely with the Scottsbluff, Nebraska field office
management team to ensure the organization meets SSA policy requirements. In addition, the
Scottsbluff, Nebraska field office management team will meet with Safe Harbor in August to
ensure all recommendations are fully implemented.

Recommendation 1 – Remind Safe Harbor to return conserved funds timely in accordance with
SSA’s instructions.

      •   Safe Harbor implemented a new policy that limits the amount of time the organization
          can retain conserved funds for any client. The Scottsbluff field office will continue to
          monitor the organization to ensure this policy is practiced and that conserved funds are
          returned in a timely manner.

Recommendation 2 – Encourage Safe Harbor to place beneficiaries’ conserved funds of
$500.00 or more in an interest-bearing account or a relatively risk-free investment.

      •   The field office will ensure Safe Harbor establishes an interest-bearing account for the
          individuals the organization serves.

Recommendation 3 – Determine whether Safe Harbor is the appropriate representative payee
for those individuals for whom it is a conduit payee.

      •   The field office reviewed the 154 beneficiaries Safe Harbor served to determine whether
          the organization was operating as a conduit payee. Based on our findings,
          37 beneficiaries were either placed in direct pay or assigned a more suitable
          representative payee. Safe Harbor will not be selected as representative payee for new
          beneficiaries/recipients until they can successfully meet all of our policy requirements
          and demonstrate that they are consistently complying with the recommendations in this
          report.

                                                      D-1
Recommendation 4 – Ensure Safe Harbor establishes effective safeguards over the accounting
process including a proper segregation of duties and monthly bank reconciliations.

   •   Safe Harbor implemented new procedures to ensure the timely distribution of checks and
       reconciliation of beneficiaries’/recipients’ accounts. The organization hired an
       independent accounting agency to reconcile the beneficiary accounts (on an ongoing
       basis). In addition, a board member will help reconcile the accounts monthly.

Recommendation 5 – Instruct Safe Harbor to maintain sufficient documentation for all the
beneficiaries it serves to support that Social Security benefits are used in the best interest of the
beneficiaries.

   •   Safe Harbor implemented a new procedure to scan all documentation of expenditures and
       they place documents in a separate file for each client. This allows the organization to
       easily access all expenditure documentation for Social Security purposes.

Recommendation 6 – Verify the adequacy of Safe Harbor’s implementation of PII safeguards.

   •   Safe Harbor has implemented a number of changes to protect beneficiary personal data.
       All file cabinets were removed from the front office. In addition, the organization has
       purchased two large locking file cabinets to store beneficiary files.

       The doors to the center office are locked at all times and only the Administrative
       Assistant and the Executive Director have keys. The check stock is maintained in a
       locked file cabinet with the signature stamp. All computers are now password protected
       and all employees are required to sign a confidentiality statement upon employment with
       the facility. When visiting the facility, the field office will ensure the facility continues to
       secure beneficiary’s/recipients’ personal information.

Recommendation 7 – Encourage Safe Harbor to meet periodically with all beneficiaries to
ascertain their current and foreseeable needs.

   •   Safe Harbor staff has started visiting beneficiaries/recipients. The organization indicates
       this practice has strengthened relationships with their customers. The field office will
       monitor Safe Harbor and ensure the organization meets with beneficiaries/recipients
       periodically.

If you have any questions, please contact me at 816-936-5700. If your staff needs additional
information or assistance, they many contact Kathy Smith, Center for Programs Support, at
816-936-5643 or Shelli Reicks, Center for Programs Support, at 816-936-5655.

                                                  /s/
                                       Charles J. Mitchum for
                                        Carolyn L. Simmons




                                                 D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Ken Bennett, Information Technology Specialist

Acknowledgments

In addition to those named above:

   Carol Cockrell, Evaluator
   Scott Richter, Auditor
   Nicholas Moore, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-11-11141.
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives

Chairman and Ranking Minority Member, Committee on Oversight and Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives

Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
 Education and Related Agencies, Committee on Appropriations, House of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance

Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
 Family Policy

Chairman and Ranking Minority Member, Senate Special Committee on Aging

Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
